   September 27, 2006




Acquisition
Expanded Micro-Purchase Authority
for Purchase Card Transactions
Related to Hurricane Katrina
(D-2006-111)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

A/OPC                 Agency/Organization Program Coordinator
OMB                   Office of Management and Budget
PCPMO                 Purchase Card Joint Program Management Office
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                        Logistics
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                     September 27,2006

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               DIRECTOR, DOD PURCHASE CARD JOINT PROGRAM
                 MANAGEMENT OFFICE
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE INFORMATION SYSTEMS
                 AGENCY
               DIRECTOR, NATIONAL GEOSPATIAL-INTELLIGENCE
                 AGENCY
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
SUBJECT: Report on the Expanded Micro-Purchase Authority for Purchase Card
         Transactions Related to Hurricane Katrina (Report No. D-2006-111)

      We are providing this report for review and comment. We considered
management comments on a draft of this report in preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The National Geospatial-Intelligence Agency comments were partially responsive. We
request the Director of the National Geospatial-Intelligence Agency provide comments on
Recommendation A.5.b. by November 27,2006. In addition, we revised
recommendations B. 1.a. and B.2.a based on comments from the Army. However, Army
comments on the draft of this report conformed to requirements, and no additional
comments are required.
        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AudACM@,dodia.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).We appreciate the courtesies extended to the staff. Questions should be
directed to Ms. Deborah L. Carros at (703) 604-9217 (DSN 664-9217). See Appendix C
for the report distribution. The team members are listed inside the back cover.

                               By direction of the Deputy Inspector General for Auditing:



                                           Richard B. Jolliffe
                                      Assistant Inspector General
                               for Acquisition and Contract Management
                Department of Defense Office of Inspector General
Report No. D2006-111                                                    September 27, 2006
   (Project No. D2006-D000CK-0019.000)

           Expanded Micro-Purchase Authority for Purchase Card
                Transactions Related to Hurricane Katrina

                                 Executive Summary

Who Should Read This Report and Why? DoD purchase card program managers,
certifying officials, approving officials, alternate approving officials, cardholders, and
contracting officials responsible for implementing and overseeing purchase card
processes should read this report because it identifies problems with internal controls.

Background. This report is one in a series of planned audit reports that the DoD Office
of Inspector General will issue discussing recovery efforts as a result of Hurricane
Katrina. We conducted this audit in response to a request from the DoD Purchase Card
Joint Program Management Office. The DoD Purchase Card Joint Program Management
Office requested that we review whether purchase cardholders made purchase card
transactions in support of Hurricane Katrina rescue and relief operations pursuant to
Section 101 of Public Law 109-62, “Second Emergency Supplemental Appropriations
Act to Meet Immediate Needs Arising from the Consequences of Hurricane Katrina.”
Specifically, the DoD Purchase Card Joint Program Management Office requested that
we determine whether purchase card transactions made in support of Hurricane Katrina
were reasonable, appropriate, and consistent with DoD purchase card policies and
procedures.

From September 1 through September 30, 2005, Army, Air Force, and Defense agency
cardholders made 34,060 purchase card transactions in excess of $2,500. We reviewed
1,850 purchase card transactions, valued at $18,498,573 that 591 cardholders made at
12 military installations and 3 Defense agencies.

Results. Army, Air Force, and Defense agency purchase card transactions that were
reviewed and made in support of Hurricane Katrina rescue and relief operations were
generally reasonable and appropriate; however, purchase card program managers did
not−

       •    capture all of the purchase card transactions associated with Hurricane
            Katrina;

       •    identify Hurricane Katrina-related purchase card transactions consistently;

       •    generally conduct timely follow-up transaction reviews as required; and
       •   issue required delegation of authority letters to cardholders with authorized
           increased single purchase limits for making Hurricane Katrina-related
           purchases.

In addition, Army, Air Force, and Defense agency cardholders made Hurricane
Katrina-related purchases in excess of their purchase authority; and, Army and Air Force
cardholders made Hurricane Katrina-related purchases without adequate supporting
documentation and sufficient justification. As a result, the Army, Air Force, and Defense
agencies cannot determine the total number and dollar value of purchase card
transactions associated with Hurricane Katrina rescue and relief operations. Furthermore,
unless contingency-related purchase card guidance is revised and purchase card managers
significantly improve efforts to disseminate and implement guidance, Army, Air Force,
and Defense agency purchase card program officials cannot mitigate the risk of fraud,
abuse, or mismanagement related to future disaster rescue and relief operations
(finding A).

Army and Air Force cardholders made 269 improper purchase card transactions unrelated
to Hurricane Katrina at 11 of the 12 military installations reviewed. Each of those
269 transactions exceeded the $2,500 single micro-purchase threshold the Federal
Acquisition Regulation mandates. Army and Air Force cardholders executed−

       •   39 transactions exceeding the $2,500 single purchase limit authorized by the
           delegation of authority letter;

       •   11 transactions without using a Government contract;

       •   4 transactions with inadequate sole-source justification; and

       •   215 transactions without obtaining 3 sources of competition when purchasing
           from Federal Supply Schedules.

Unless purchase card program management officials at the 11 military installations
establish a robust oversight presence and significantly strengthen internal controls, the
Army and Air Force purchase card program officials cannot mitigate the risk of fraud,
waste, and abuse (finding B).

Management Comments. The Director, Defense Procurement and Acquisition Policy,
the Acting Director, Army Contracting Agency, the Assistant Secretary of the Air Force
for Acquisition, the Director for Procurement Chief, Defense Information Technology
Contracting Organization, and the Director of the National Geospatial-Intelligence
Agency generally concurred with the recommendations to the draft report. The Acting
Director, Army Contracting Agency, partially concurred with one recommendation and
stated Air Force policies would not be distributed. We agreed and revised the
recommendation to be Army specific. The Director of the National
Geospatial-Intelligence Agency concurred with the recommendation to conduct follow-


                                             ii
up reviews in accordance with Office of Management and Budget requirements for all
Hurricane Katrina purchases and stated the reviews had been conducted. However, the
reviews did not address specific Office of Management and Budget requirements;
therefore, we request the Director provide additional comments by November 27, 2006.
(See the Finding section of the report for a discussion of management comments and the
Management Comments section for the complete text of comments.)




                                          iii
Table of Contents

Executive Summary                                                                i

Background                                                                       1

Objectives                                                                       3

Findings
     A. Purchase Card Use In Support of Hurricane Katrina                        5
     B. Purchase Card Transactions Exceeded the $2,500 Micro-Purchase
          Threshold                                                             27

Appendixes
     A. Scope and Methodology                                                   38
     B. Number of Agency/Organization Program Coordinators Responsible
          for Selected Transactions by Location                                 40
     C. Report Distribution                                                     41

Management Comments
     A. Under Secretary of Defense for Acquisition, Logistics, and Technology   43
     B. Army Contracting Agency                                                 45
     C. Department of the Air Force                                             49
     D. Defense Information Systems Agency                                      51
     E. National Geospatial-Intelligence Agency                                 53
Background

    This report is one in a series of planned audit reports that the DoD Office of
    Inspector General will issue discussing Hurricane Katrina recovery efforts. We
    conducted this audit in response to a request from the DoD Purchase Card Joint
    Program Management Office (PCPMO). The DoD PCPMO requested that we
    review whether purchase cardholders made purchase card transactions in support
    of Hurricane Katrina rescue and relief operations pursuant to Section 101 of
    Public Law 109-62, “Second Emergency Supplemental Appropriations Act to
    Meet Immediate Needs Arising from the Consequences of Hurricane Katrina.”
    Specifically, DoD PCPMO requested that we determine whether purchase card
    transactions made in support of Hurricane Katrina recovery efforts were
    reasonable, appropriate, and consistent with DoD purchase card policies and
    procedures.

    Government Purchase Card Programs. Federal purchase card programs,
    which have been in existence throughout the Government since 1989, were
    established to streamline acquisition processes by providing a low-cost, efficient
    vehicle for obtaining goods and services directly from vendors. The purchase
    card is authorized for use in making and paying for purchases of supplies,
    services, or construction in accordance with the Federal Acquisition Regulation.
    Federal Acquisition Regulation Subpart 13.2, Actions At or Below the Micro-
    Purchase Threshold, states that the purchase card will be the preferred method to
    purchase and pay for micro-purchases. The Federal Acquisition Regulation
    defines a “micro-purchase” as an acquisition of supplies or services using
    simplified acquisition procedures, the aggregate amount of which does not exceed
    the micro-purchase threshold of $2,500, except for construction where the
    threshold is $2,000. In addition, the Federal Acquisition Regulation Subpart 13.3,
    Simplified Acquisition Methods, states that an agency’s procedures should not
    limit use of the Government commercial purchase card for micro-purchases. In
    addition, agency procedures should encourage use of the card by contracting
    officers in greater dollar amounts. The General Services Administration reported
    that by using purchase cards the Government saves approximately $1.4 billion
    annually in administrative costs. In addition, the purchase card program earned
    the Government refunds of $50.9 million in FY 2005.

    The General Services Administration established the General Services
    Administration SmartPay® program in 1998 in which contracts were awarded to
    five service providers for purchase card services: Bank of America, Bank One,
    Citibank, Mellon Bank, and U.S. Bank. Federal Government departments and
    agencies were to choose the service provider with capabilities meeting agency
    requirements. The Army, Air Force, and Defense agencies including the Defense
    Commissary Agency, the Defense Information Systems Agency, and the National



                                        1
Geospatial-Intelligence Agency, operate under a Government General Services
Administration contract with U.S. Bank.

DoD Program Participants and Responsibilities. The Deputy Secretary of
Defense established the DoD PCPMO in March 1998. The Under Secretary of
Defense for Acquisition Technology and Logistics and the DoD PCPMO have
overall responsibility for the DoD purchase card program. The PCPMO is staffed
with representatives from each Military Department, the Defense Logistics
Agency, and the Defense Finance and Accounting Service. The PCPMO reports
directly to the Director, Defense Procurement and Acquisition Policy, within the
office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics (USD[AT&L]). The head of each DoD Component and Defense agency
designates an office that will manage the purchase card program and should
ensure purchase card policies and procedures are implemented, purchase
cardholders are properly trained, and other day-to-day duties of an organization’s
purchase card program are properly managed. DoD Agency/Organization
Program Coordinators (A/OPCs) at the Component, Defense agency, Major
Command, and installation levels are responsible for purchase card program
management.

Increased Micro-Purchase Authority for Hurricane Katrina Rescue and
Relief Operations. Federal authorities issued the following series of policy
memorandums on purchase card use in response to Hurricane Katrina

       •   On September 2, 2005, the USD(AT&L) authorized an increase in the
           micro-purchase threshold from $2,500 to $15,000 for purchases made
           in support of Hurricane Katrina rescue and relief operations;

       •   On September 8, 2005, Congress enacted Public Law 109-62, “Second
           Emergency Supplemental Appropriations Act to Meet Immediate
           Needs Arising from the Consequences of Hurricane Katrina,” that
           authorized an increase in the micro-purchase threshold from $2,500 to
           $250,000 for transactions made in support of Hurricane Katrina rescue
           and relief operations;

       •   On September 13, 2005, the Office of Management and Budget
           (OMB) issued policies and procedures for implementing the increased
           micro-purchase threshold;

       •   On September 16, 2005, the USD(AT&L) authorized DoD contracting
           officers who were Government Commercial Purchase Card users to
           use the purchase card for Hurricane Katrina-related purchases of
           commercial items up to the increased micro-purchase threshold of
           $250,000;



                                    2
                    •   On September 21, 2005, the Director of the PCPMO issued policies
                        and procedures for implementing the increased micro-purchase
                        threshold;

                    •   On October 3, 2005, OMB requested that agencies not use the
                        increased micro-purchase threshold Public Law 109-62 authorized
                        unless the purchase was an exceptional circumstance; and

                    •   On October 5, 2005, the USD(AT&L) rescinded the authorization for
                        micro-purchases up to $250,000; however, the USD(AT&L) still
                        authorized an increase in the micro-purchase threshold from $2,500 to
                        $15,000 for purchases made in support of Hurricane Katrina rescue
                        and relief operations in accordance with the Federal Acquisition
                        Regulation.

           Hurricane Katrina Cardholder and Transaction Data. DoD did not have a
           repository for Hurricane Katrina-related purchase card transaction data. In
           addition, U.S. Bank did not have a unique indicator for identifying Hurricane
           Katrina-related cardholders or transactions. When queried, the Army, Air Force,
           and Defense agency 1 Component Level II A/OPCs did not collect or track
           Hurricane Katrina-related cardholder or transaction data. As a result, we
           requested and received all Army, Air Force, and Defense agency purchase card
           transactions in excess of $2,500 made from September 1 through September 30,
           2005, from U.S. Bank. We also requested a list of Army, Air Force, and Defense
           agency cardholders who received increased single purchase limits for making
           Hurricane Katrina-related purchase card transactions from the Component Level
           II A/OPCs. We reviewed all Army, Air Force, and Defense agency cardholders
           who made purchases in excess of $2,500 from September 1 through September
           30, 2005, at the locations of the cardholders with increased thresholds.

           We did not include purchase card transactions made by Navy cardholders in the
           scope of this audit. The Naval Audit Service initiated an audit on September 30,
           2005 on purchase card transactions made in support of Hurricane Katrina.


Objectives

           The overall audit objective was to determine whether DoD purchase card
           transactions in support of Hurricane Katrina rescue and relief operations were
           reasonable, appropriate, and consistent with DoD policies and procedures.
1
    For specific Defense agencies included in the scope of this review, see finding A and Appendix A.




                                                      3
Specifically, we reviewed purchase card transactions to determine whether the
transactions were made pursuant to Section 101 of the Second Emergency
Supplemental Appropriations Act. See Appendix A for a discussion of the audit
scope, scope limitation, and methodology.




                                   4
A. Purchase Card Use in Support of
   Hurricane Katrina
Army, Air Force, and Defense agency purchase card transactions that
were reviewed and made in support of Hurricane Katrina rescue and relief
operations were generally reasonable and appropriate. However, purchase
card program managers did not⎯

       •   capture all purchase card transactions associated with
           Hurricane Katrina;

       •   identify Hurricane Katrina-related purchase card transactions
           consistently;

       •   generally conduct timely follow-up transaction reviews as
           required; and

       •   issue required delegation of authority letters to cardholders
           with authorized increased single purchase limits for making
           Hurricane Katrina-related purchases.

In addition, Army, Air Force, and Defense agency cardholders made
purchases in excess of their single purchase limit authority; and Army and
Air Force cardholders made Hurricane Katrina-related purchases without
adequate supporting documentation and sufficient justification.

The conditions occurred because purchase card program managers did not
implement policies and procedures for capturing and reviewing all of the
data for Hurricane Katrina-related purchase card transactions and did not
ensure that general controls over purchase card transactions were
effectively implemented. In addition, DoD guidance did not provide clear
criteria for ensuring that purchase card program managers properly and
consistently classified purchase card transactions as Hurricane Katrina-
related for reporting and reimbursement purposes. As a result, the Army,
Air Force, and Defense agencies cannot determine the total number and
dollar value of purchase card transactions associated with Hurricane
Katrina rescue and relief operations. Furthermore, unless
contingency-related purchase card guidance is revised and purchase card
managers significantly improve efforts to distribute and implement
guidance, Army, Air Force, and Defense agency purchase card program
officials cannot mitigate the risk of fraud, abuse, or mismanagement
related to future disaster rescue and relief operations.




                             5
Guidance for Hurricane Katrina-Related Purchase Card Use

    Executive Office of the President, Office of Management and Budget, Office
    of Federal Procurement Policy and Financial Management memorandum
    titled, “Implementing Management Controls to Support Increased
    Micro-Purchase Threshold for Hurricane Katrina Rescue and Relief
    Operations,” September 13, 2005. The Office of Management and Budget
    (OMB) issued policies and procedures for making purchases using the increased
    micro-purchase threshold in support of Hurricane Katrina rescue and relief
    operations. The OMB guidance identifies required responsibilities for the heads
    of agencies, purchase card program officials, approving officials, and cardholders.
    Agency heads at a level no lower than the head of the contracting activity must
    identify in writing those individuals authorized to make purchases in support of
    Hurricane Katrina. In addition, heads of agencies and purchase card program
    managers must establish and communicate policies and procedures for
    determining whether transactions supported Hurricane Katrina rescue and relief
    operations. The guidance further states that the head of each agency must
    delegate purchase card program officials to conduct follow-up reviews within 60
    days of a transaction made in support of Hurricane Katrina rescue and relief
    operations. The policies and procedures remind approving officials and
    cardholders to ensure prices are reasonable.

    Department of Defense Purchase Card Joint Program Management Office
    memorandum titled, “Use of the Government Purchase Card in Support of
    Hurricane Katrina Rescue and Relief Operations,” September 21, 2005. The
    Director of the DoD PCPMO issued policies and procedures for purchase card
    program A/OPCs, resource/financial managers, billing/certifying officials, and
    cardholders for making purchase card transactions in support of Hurricane
    Katrina rescue and relief operations. A/OPC responsibilities included:

           •   increasing purchase card spending limits to billing officials and
               cardholders only where appropriate,

           •   maintaining a record of all billing official and cardholder accounts
               with increased single and monthly purchase limits,

           •   distributing governing policy and guidance for use of the purchase
               card for Hurricane Katrina-related transactions,

           •   reissuing delegation of authority letters to reflect increased
               micro-purchase limits,

           •   developing and issuing instructions that can identify and capture
               Hurricane Katrina-related purchase card transactions and dollars, and


                                         6
           •   developing and issuing guidance on required documentation to
               identify Hurricane Katrina-related purchases.

    DoD PCPMO purchase card policies and procedures (DoD Guidance) require that
    resource/financial managers assist in identifying and capturing the number and
    dollar value of all Hurricane Katrina-related purchase card transactions. The
    guidance also requires that approving officials establish and maintain a discreet
    record of the number of Hurricane Katrina-related purchase card transactions and
    dollars spent. The guidance further requires that approving officials properly
    document, identify, record and maintain Hurricane Katrina-related purchase card
    transactions. In addition, the guidance directs that a warranted contracting officer
    or a senior manager at the GS-14 level or above must pre-approve any open
    market transactions exceeding $15,000.

    DoD Guidance also states that approving officials must ensure that cardholders
    obtain the appropriate documentation to support a Hurricane Katrina purchase and
    comply with the appropriate laws and acquisition regulations. In addition, the
    guidance states that cardholders must identify and justify purchases made in
    support of Hurricane Katrina. The guidance specifically states that cardholders
    identify a Hurricane Katrina-related purchase card transaction by including details
    in the supporting documentation identifying the goods and services purchased,
    annotating a K next to the purchase in the purchase log, and justifying how the
    purchase supported Hurricane Katrina rescue and relief operations.


Army, Air Force, and Defense Agency Purchase Card
  Transactions Reviewed

    From September 1 through September 30, 2005, Army, Air Force, and Defense
    agency cardholders made 34,060 purchase card transactions in excess of $2,500.
    We reviewed⎯

       •   746 purchase card transactions 178 cardholders made at 5 Army locations
           (Camp Shelby in Mississippi, Fort Benning in Georgia, Fort Bragg in
           North Carolina, Fort Gordon in Georgia, and Fort Hood in Texas);

       •   1,085 purchase card transactions 406 cardholders made at 7 Air Force
           locations (Hill Air Force Base in Utah, Keesler Air Force Base in
           Mississippi, Lackland Air Force Base in Texas, Little Rock Air Force
           Base in Arkansas, Moody Air Force Base in Georgia, Peterson Air Force
           Base in Colorado, and Randolph Air Force Base in Texas); and




                                         7
               •   19 purchase card transactions 7 cardholders made at 3 Defense agencies
                   (the National Geospatial-Intelligence Agency, the Defense Information
                   Systems Agency, and the Defense Commissary Agency).

           Hurricane Katrina-Related Transactions. For the Army, Air Force, and
           Defense agency purchase card transactions in excess of $2,500 reviewed, we were
           able to determine that 30 Army cardholders made 96 transactions, valued at
           $959,150; 20 Air Force cardholders made 94 transactions, valued at $679,829;
           and 5 Defense agency cardholders made 9 transactions, valued at $119,028, in
           support of Hurricane Katrina rescue and relief operations.

           Army, Air Force, and Defense agency purchase card transactions reviewed and
           made in support of Hurricane Katrina rescue and relief operations were generally
           reasonable and appropriate. For the Army, Air Force, and Defense agency
           Hurricane Katrina-related purchase card transactions in excess of
           $2,500 reviewed, we did not identify any unreasonable, inappropriate, or
           fraudulent Hurricane Katrina-related purchases. However, purchase card program
           officials did not implement policies and procedures for capturing and reviewing
           all of the data for Hurricane Katrina-related purchase card transactions and did
           not ensure that general controls over purchase card transactions were effectively
           implemented.


Purchase Card Managers Did Not Capture Hurricane Katrina
  Purchase Card Data

           Army, Air Force, and Defense agency purchase card program managers, referred
           to as A/OPCs, did not capture all of the data for Hurricane Katrina-related
           purchase card transactions. Program managers did not capture all of the data
           because purchase card program managers did not implement policies and
           procedures issued specifically for capturing the purchase card transaction data.

           Hurricane Katrina-Related Transaction Data. DoD guidance requires that the
           A/OPCs develop and issue instructions that will enable identification and capture
           of all Hurricane Katrina-related purchase card transactions and dollars. For the
           5 Army, 7 Air Force, and 3 Defense agency activities reviewed, 21 A/OPCs 2 were
           responsible for managing their respective purchase card programs and capturing
           the data for Hurricane Katrina-related purchase card transactions. However, 18 of
           those 21 A/OPCs did not capture all Hurricane Katrina-related purchase card

2
    The 21 A/OPCs responsible for managing the purchase card programs consisted of 10 A/OPCs at 5 Army
    installations, 7 A/OPCs at 7 Air Force installations, and 4 A/OPCs at 3 Defense agencies (one at the
    Defense Commissary Agency, two at the Defense Information Systems Agency, and one at the National
    Geospatial-Intelligence Agency).



                                                    8
transactions. See Appendix B for the number of A/OPCs responsible for selected
transactions by location visited.

        Army Transactions. For the 10 Army A/OPCs responsible for capturing
data for Hurricane Katrina-related purchase card transactions at the 5 Army
installations reviewed, 7 A/OPCs did not capture any of the required data,
2 A/OPCs captured only purchase card transactions in excess of $2,500, and
1 A/OPC did not have cardholders who made Hurricane Katrina-related
purchases. See Table 1 for details on the A/OPCs and their specific Army
installations. For the seven Army A/OPCs who did not capture data for Hurricane
Katrina-related purchase card transactions, five A/OPCs stated they received the
DoD Guidance but did not review it. In addition, one A/OPC at Camp Shelby
was not sure how to capture the data, and the A/OPC at Fort Benning stated that
end-of-year audits were a higher priority. The two Army A/OPCs who captured
purchase card transactions in excess of $2,500 stated they interpreted the DoD
Guidance as applicable only to transactions in excess of $2,500. As a result, the
Army did not capture all of the data for Hurricane Katrina-related purchase card
transactions at five Army installations and, therefore, cannot determine the total
number and dollar value of Army purchase card transactions associated with
Hurricane Katrina rescue and relief operations.

Table 1. Army A/OPCs Responsible for Capturing Hurricane
Katrina-Related Purchase Card Transaction Data.

                                Captured             Did Not Have
                               Transactions        Hurricane Katrina
     Army          Did Not     in Excess of         Purchase Card
    Location       Capture        $2,500             Transactions

  Camp Shelby          2
  Fort Benning         1
   Fort Bragg          2
  Fort Gordon          1             1
   Fort Hood           1             1                      1
      Total            7             2                      1

        Air Force Transactions. For the seven Air Force A/OPCs responsible
for capturing data for Hurricane Katrina-related purchase card transactions at the
seven Air Force installations reviewed, three A/OPCs did not capture any of the
required data, and four A/OPCs captured only purchase card transactions in
excess of $2,500. See Table 2 for details on the A/OPCs and their specific Air
Force installations. The three Air Force A/OPCs who did not capture data for
Hurricane Katrina-related purchase card transactions stated they received the


                                     9
DoD Guidance but did not review it. The four A/OPCs who captured purchase
card transactions in excess of $2,500 interpreted the DoD Guidance as applicable
only to transactions in excess of $2,500. As a result, the Air Force did not capture
all of the data for Hurricane Katrina-related purchase card transactions at seven
Air Force installations and, therefore, cannot determine the total number and
dollar value of Air Force purchase card transactions associated with Hurricane
Katrina rescue and relief operations.
Table 2. Air Force A/OPCs Responsible for Capturing Hurricane
Katrina-Related Purchase Card Transaction Data.

     Air Force Location            Did Not       Captured Transactions
                                   Capture        in Excess of $2,500
      Hill Air Force Base             1
    Keesler Air Force Base                                   1
   Lackland Air Force Base                                   1
  Little Rock Air Force Base                                 1
    Moody Air Force Base               1
   Peterson Air Force Base             1
   Randolph Air Force Base                                   1
             Total                     3                     4


        Defense Agency Transactions. For the four A/OPCs responsible for
capturing all of the data for Hurricane Katrina-related transactions at the Defense
Commissary Agency, the Defense Information Systems Agency, and the National
Geospatial-Intelligence Agency, one A/OPC at the Defense Information Systems
Agency did not capture any of the required data; one Defense Information
Systems Agency A/OPC captured only purchase card transactions in excess of
$2,500; the Defense Commissary Agency and the National Geospatial-
Intelligence Agency A/OPC captured all the data for Hurricane Katrina-related
purchase card transactions, as required. See Table 3 for details on the A/OPCs
and their specific Defense agencies. The Defense Information Systems Agency
A/OPC who did not capture data for Hurricane Katrina-related purchase card
transactions stated he had received the DoD Guidance but did not review it. The
Defense Information Systems Agency A/OPC who captured purchase card
transactions in excess of $2,500 interpreted the DoD Guidance as applicable only
to transactions in excess of $2,500. As a result, the Defense Information Systems
Agency did not capture all of the data for Hurricane Katrina-related purchase card
transactions and, therefore, cannot determine the total number and dollar value of



                                    10
    purchase card transactions associated with Hurricane Katrina rescue and relief
    operations.

    Table 3. Defense Agency A/OPCs Responsible for Capturing Hurricane
    Katrina-Related Purchase Card Transaction Data.

                                              Captured
                                                              Captured All
                                             Transactions
                                                             Purchase Card
                              Did Not        In Excess Of
      Defense Agency                                        Transaction Data
                              Capture           $2,500

    Defense Commissary                                               1
           Agency
    Defense Information           1               1
      Systems Agency
    National Geospatial-                                             1
    Intelligence Agency
            Total                 1               1                  2




Resource Management Personnel Captured Hurricane
  Katrina-Related Costs

    Although purchase card program personnel did not capture all data for Hurricane
    Katrina-related purchase card transactions as required, resource management
    personnel stated that they collected and reported Hurricane Katrina-related costs.
    As previously stated, of the 21 A/OPCs responsible for capturing data for
    Hurricane Katrina-related purchase card transactions, 18 did not capture all of the
    data. However, resource management personnel at the five Army installations,
    seven Air Force installations, and the three Defense agencies we reviewed
    collected and reported Hurricane Katrina costs.

    The DoD Guidance requires that resource/financial managers assist A/OPCs to
    identify and capture all Hurricane Katrina-related purchase card transactions and
    dollars. However, internal Army guidance requires that resource management
    personnel collect and report Hurricane Katrina costs without regard to method of
    payment.




                                        11
           Army Resource Management Data Collection. Nine resource managers 3 were
           responsible for assisting in identifying and capturing Hurricane Katrina-related
           purchase card transactions at the five Army installations we reviewed. Of those
           nine resource managers, seven captured Hurricane Katrina-related costs according
           to method of payment, which included purchase card transactions. Two resource
           managers at Fort Bragg captured Hurricane Katrina-related costs, but not
           according to method of payment.

           Air Force Resource Management Data Collection. One resource manager at
           each of the seven Air Force installations reviewed assisted in identifying and
           capturing Hurricane Katrina-related purchase card transactions. Of those seven
           resource managers, six captured Hurricane Katrina-related costs according to
           method of payment, which included purchase card transactions. The resource
           manager at Peterson Air Force Base captured Hurricane Katrina-related costs, but
           not according to method of payment.

           Resource management personnel at six 4 of the seven Air Force installations
           reported estimated Hurricane Katrina-related costs rather than actual costs.
           Resource management personnel stated that Air Force Major Commands
           requested Hurricane Katrina-related cost reports, and at the time of the requests,
           actual costs were not available from the cardholders. The resource management
           personnel at the six installations did not adjust or report actual costs to the Major
           Commands once actual costs were identified.

           Defense Agency Resource Management Data Collection. At the three Defense
           agencies reviewed, three resource managers assisted in identifying and capturing
           Hurricane Katrina-related purchase card transactions. One resource manager at
           the Defense Commissary Agency, one resource manager at the Defense
           Information Systems Agency, and one resource manager at the National
           Geospatial-Intelligence Agency captured Hurricane Katrina-related costs;
           however, the resource managers at the Defense Commissary Agency and National
           Geospatial-Intelligence Agency did not capture Hurricane Katrina costs by
           method of payment.

           The nine Army, seven Air Force, and four Defense agency A/OPCs responsible
           for Hurricane Katrina-related purchase card transactions stated that cardholders
           reported data for Hurricane Katrina-related purchase card transactions directly to
           resource managers and that A/OPCs did not manage or, in some cases, have

3
    At the five Army installations reviewed, one resource manager at Camp Shelby, two resource managers at
    Fort Benning, three resource managers at Fort Bragg, one resource manager at Fort Gordon, and two
    resource managers at Fort Hood were responsible for identifying and capturing Hurricane Katrina-related
    costs.
4
    Resource management personnel at Hill, Keesler, Lackland, Little Rock, Moody, and Randolph Air Force
    Bases reported estimated Hurricane Katrina-related expenses rather than actual costs.



                                                     12
     knowledge about, the data reported. As a result, the completeness and accuracy
     of the resource management data relied on complete and accurate reporting by
     cardholders.

     We did not validate whether the data Army, Air Force, and Defense agency
     resource management personnel collected were accurate or complete because
     resource management personnel collected and reported Hurricane Katrina-related
     costs from all payment methods and our review was limited to purchase card
     transactions. However, 18 Army, Air Force, and Defense agency A/OPCs did not
     capture all of the data for Hurricane Katrina-related purchase card transactions.
     Consequently, data not captured were not reported, as required. In addition, we
     looked at resource management data at each of the five Army installations, seven
     Air Force installations, and the three Defense agencies for previously identified
     Hurricane Katrina-related purchase card transactions and found that one Army
     and two Air Force installations were missing some transaction data. As a result,
     the Army and Air Force did not have the data necessary for accurately
     determining the total purchase card dollar value of Hurricane Katrina costs.


Identification of Hurricane Katrina-Related Purchases

     Army and Air Force cardholders and their supervisors did not identify Hurricane
     Katrina-related purchase card transactions consistently. Cardholders followed
     supervisor directions or used personal discretion to identify which transactions to
     report to resource management activities. That condition occurred because DoD
     Guidance did not provide clear criteria for ensuring purchase card program
     managers properly and consistently classified purchase card transactions as
     Hurricane Katrina-related for reporting and reimbursement purposes.

     Army Transactions. Six Army cardholders and their supervisors at Fort Hood
     did not identify Hurricane Katrina-related purchase card transactions consistently.
     The DoD Guidance requires that A/OPCs develop and issue instructions that will
     enable identification and capture of all Hurricane Katrina-related purchase card
     transactions and dollars, and that cardholders identify and justify purchases
     supporting Hurricane Katrina. However, the guidance did not provide clear
     criteria for ensuring that purchase card program managers properly and
     consistently classified purchase card transactions as Hurricane Katrina-related;
     and only 1 of 10 A/OPCs at the activities reviewed, developed, and issued
     instructions for identifying and capturing data for Hurricane Katrina-related
     purchase card transactions.

     Resource management personnel at Fort Hood received internal Army guidance
     stating that Hurricane Katrina-related purchases were not reimbursable if the
     items purchased provided mission support beyond the rescue and relief efforts.


                                         13
Resource management personnel concluded that cardholders should not report
nonreimbursable purchases as Hurricane Katrina-related costs. For example, one
Fort Hood cardholder from the Veterinary Command purchased portable furniture
to support distressed animals affected by Hurricane Katrina. The approving
official told the cardholder not to report those purchases as Hurricane
Katrina-related because the purchase was related to the Veterinary Command
mission. As a result, the approving official determined that the purchase was
nonreimbursable and, therefore, not reported as a Hurricane Katrina purchase card
transaction. Another Fort Hood cardholder purchased sustainment kits for the
deployed units located in the Hurricane Katrina disaster area. The cardholder did
not report the purchase as Hurricane Katrina-related because purchasing
sustainment kits was part of the cardholder's mission. As a result, the cardholder
determined that the purchase was not reimbursable and, therefore, not reported as
a Hurricane Katrina purchase card transaction.

Air Force Transactions. Of the sites reviewed, two cardholders from Little
Rock Air Force Base and two cardholders from Moody Air Force Base did not
consistently identify Hurricane Katrina-related purchase card transactions.

        Little Rock Air Force Base Transactions. The two cardholders from
Little Rock Air Force Base purchased portable latrines, uniforms, and tactical
supplies. Cardholder documentation for the transactions indicated the purchases
were related to Hurricane Katrina; however, the cardholders did not identify the
purchases as Hurricane Katrina-related to the A/OPC or resource management
personnel for reporting purposes. The cardholders did not provide a reason for
failing to identify the purchases as Hurricane Katrina-related.

        Moody Air Force Base Transactions. One cardholder transaction at
Moody Air Force Base was for the rental of portable air conditioning units to
support Hurricane Katrina rescue and relief operations. The cardholder did not
identify the purchase as Hurricane Katrina-related to the A/OPC or resource
management personnel. The cardholder stated the portable air conditioning units
were rented to support the Hurricane Katrina efforts; however, the units were
shipped to the base and never taken to the disaster relief area. The cardholder
stated he used the Federal Emergency Management Agency Web site to
determine if his purchase could be considered reimbursable. Based on his
interpretation, the cardholder did not identify the purchase as Hurricane
Katrina-related because he determined the purchase was not reimbursable.
Another Moody Air Force Base cardholder purchased field gear consisting of
insect protector nets, earplugs, and wet weather ponchos. The cardholder
provided transaction documentation indicating the purchase was related to
Hurricane Katrina; however, the cardholder did not identify to the A/OPC or
resource management personnel that the purchase was Hurricane Katrina-related.




                                    14
    In addition, the cardholder did not provide a reason for not identifying the
    purchases as Hurricane Katrina-related.

    Army and Air Force cardholders did not identify or report all Hurricane
    Katrina-related purchase card transactions. Consequently, resource management
    personnel will not be able to capture all Hurricane Katrina-related costs.


Purchase Card Transaction Follow-Up Reviews

    Army, Air Force, and Defense agency purchase card A/OPCs did not conduct
    follow-up reviews of Hurricane Katrina-related purchase card transactions, as
    required. That condition occurred because purchase card managers did not
    implement policies and procedures for reviewing Hurricane Katrina-related
    purchase card transactions. The OMB purchase card guidance requires that
    officials conduct follow-up reviews no later than 60 days after any given
    transaction. Specifically, OMB requires that reviews determine whether
    cardholders made purchases consistent with agency policies and procedures,
    identified Hurricane Katrina-related purchase card transactions, provided
    maximum practicable opportunity for small business participation, and contained
    sufficient transaction documentation.

    Army Follow-Up Reviews. Of the nine Army A/OPCs responsible for purchase
    card program management at the installations reviewed, seven did not conduct
    follow-up reviews on Hurricane Katrina-related transactions. Specifically, two
    A/OPCs at Camp Shelby, one A/OPC at Fort Benning, one A/OPC at Fort Bragg,
    one A/OPC at Fort Gordon, and two A/OPCs at Fort Hood did not conduct the
    required follow-up reviews on any Hurricane Katrina-related purchase card
    transactions. The A/OPCs stated they did not conduct the required follow-up
    reviews because they were unaware of the requirement even though they received
    the DoD Guidance. In addition, one A/OPC at Fort Bragg and one A/OPC at Fort
    Gordon conducted follow-up reviews of Hurricane Katrina purchase card
    transactions, but only for transactions in excess of $2,500 and not within the
    OMB requirement of 60 days. In addition, the reviews did not address specific
    OMB follow-up review requirements.

    The A/OPCs conducting reviews on transactions in excess of $2,500 stated they
    interpreted the DoD Guidance as applicable only to cardholders with increased
    thresholds above $2,500. No follow-up reviews were conducted on Hurricane
    Katrina-related purchase card transactions at the Army sites reviewed within
    120 days of September 30, 2005.

    Air Force Follow-Up Reviews. Of the seven Air Force A/OPCs responsible for
    purchase card program management at the installations reviewed, four did not


                                         15
conduct follow-up reviews on Hurricane Katrina-related transactions.
Specifically, A/OPCs at Lackland, Moody, Peterson, and Randolph Air Force
Bases did not conduct the required follow-up reviews on any Hurricane
Katrina-related purchase card transactions. The four A/OPCs at those bases
stated they did not conduct the required follow-up reviews because they were
unaware of the requirement. The A/OPCs at Hill, Little Rock, and Keesler Air
Force Bases conducted follow-up reviews, but only for transactions in excess of
$2,500 and not within the 60-day time frame OMB required. The three A/OPCs
at those bases stated they interpreted the DoD Guidance as applicable only to
cardholders with increased thresholds above $2,500. In addition, the reviews on
transactions in excess of $2,500 did not address specific OMB follow-up review
requirements. For example, the A/OPC at Hill Air Force Base performed a
follow-up review on one cardholder who made Hurricane Katrina-related
purchases, but the follow-up review questions did not specifically address
whether the cardholder identified Hurricane Katrina-related purchase card
transactions, provided maximum practicable opportunity for small business
participation, and provided sufficient transaction documentation as OMB
required.

Defense Agency Follow-Up Reviews. Of the four Defense agency A/OPCs
responsible for purchase card program management, two did not conduct follow-
up reviews of Hurricane Katrina-related purchase card transactions. Specifically,
one A/OPC at the Defense Information Systems Agency and one at the National
Geospatial-Intelligence Agency A/OPC did not conduct the required follow-up
reviews. Both A/OPCs stated they did not conduct the required follow-up
reviews because they were unaware of the requirement even though they received
the DoD Guidance. At the Defense Information Systems Agency, one A/OPC
conducted the required follow-up reviews, but only for Hurricane Katrina-related
purchase card transactions in excess of $2,500. The A/OPC reviewed the
transactions in March 2006, 164 days after the transactions occurred. The A/OPC
stated she interpreted the DoD Guidance as applicable only to cardholders with
increased thresholds above $2,500. The A/OPC reviews addressed compliance
with specific Hurricane Katrina-related OMB mandated requirements, but did not
include transactions under $2,500.

The Defense Commissary Agency A/OPC properly conducted the follow-up
reviews within the required 60-day time frame on all 56 Hurricane Katrina-related
purchase card transactions and assessed compliance with Hurricane
Katrina-related OMB requirements.

Although some Army, Air Force, and Defense Information Systems Agency
A/OPCs conducted follow-up reviews for transactions in excess of $2,500, the
A/OPCs did not generally conduct timely reviews or in accordance with OMB
requirements. During our review, the Army, Air Force, and Defense agency


                                   16
    A/OPCs developed milestones for completing the required follow-up reviews for
    Hurricane Katrina-related purchase card transactions. However, A/OPCs will not
    be able to conduct follow-up reviews for all Hurricane Katrina-related purchase
    card transactions because 18 of the 21 A/OPCs reviewed did not capture all of the
    data for Hurricane Katrina-related purchase card transactions.


Cardholder Delegation of Authority

    Army, Air Force, and Defense agency cardholders made purchases in excess of
    the single purchase limit authority their A/OPCs established. In addition, Army,
    Air Force, and Defense agency A/OPCs failed to issue required written delegation
    of authority letters to cardholders with authorized increased single purchase limits
    for making Hurricane Katrina-related purchase card transactions. That condition
    occurred because the A/OPCs did not ensure that general controls over purchase
    card transactions were effectively implemented.

    The DoD Guidance requires that A/OPCs increase purchase card spending limits
    to billing officials and cardholders only where appropriate and reissue delegation
    of authority letters to cardholders making purchases in support of Hurricane
    Katrina rescue and relief operations. In support of Hurricane Katrina rescue and
    relief operations, DoD PCPMO authorized that U.S. Bank on September 2, 2005,
    perform a blanket increase to $15,000 for all cardholder purchase card spending
    limits. DoD PCPMO rescinded the blanket increase on September 8, 2005.

    Army Delegation of Authority. Army cardholders at Fort Bragg made
    purchases in excess of the single purchase limit authority established by their
    A/OPCs. In addition, A/OPCs at Camp Shelby and Fort Bragg did not issue
    required delegation of authority letters to three cardholders for whom the bank
    increased single purchase limits.

            Purchases Made in Excess of Cardholders’ Single Purchase Limit
    Authority Established By Their A/OPCs. The seven Fort Bragg cardholders
    who made purchases in excess of the single purchase limits their A/OPCs
    established stated that their approving officials or commanding officers directed
    that they make the purchases. The cardholders stated that they believed all single
    purchase limits were increased to $15,000 for supporting Hurricane Katrina
    rescue and relief operations, and the items they purchased supported Hurricane
    Katrina rescue and relief efforts.

            Purchases Made Without Required Written Delegation of Authority.
    A/OPCs at Camp Shelby and Fort Bragg did not issue required delegation of
    authority letters to one Camp Shelby and two Fort Bragg cardholders, and the
    cardholders had increased single purchase limits. The A/OPCs at Camp Shelby


                                         17
and Fort Bragg stated they increased the single purchase limits for cardholders as
necessary, but did not reissue required delegation of authority letters because they
were unaware of the requirement, although they did receive the DoD Guidance.

Air Force Delegation of Authority. Two Air Force cardholders at Little Rock
Air Force Base and three Air Force cardholders at Moody Air Force Base made
purchases in excess of the single purchase limit authority the A/OPC established.
In addition, A/OPCs at Hill and Peterson Air Force Bases did not issue the
required delegation of authority letters to cardholders with increased single
purchase limits.

        Purchases Made in Excess of Cardholder’s Single Purchase Limit
Authority Established By Their A/OPCs. The five Air Force cardholders who
made purchases in excess of the single purchase limits that their A/OPC
established stated their approving officials or commanding officers directed that
they make the purchases. The cardholders stated that they believed the bank
increased single-purchase limits to $15,000 to support Hurricane Katrina rescue
and relief operations, and that the items they purchased actually supported
Hurricane Katrina rescue and relief efforts.

         Purchases Made Without Required Written Delegation of Authority.
Air Force A/OPCs did not issue the required delegation of authority letters to one
cardholder at Hill Air Force Base and three cardholders at Peterson Air Force
Base, and the cardholders had increased single purchase limits. The A/OPCs at
Hill and Peterson Air Force Bases stated they increased the single purchase limits
for cardholders as necessary but did not reissue required delegation of authority
letters because they were unaware of the requirement, although they did receive
the DoD Guidance.

Defense Agency Delegation of Authority. One cardholder at the Defense
Information Systems Agency made purchases in excess of the single purchase
limit authority the A/OPC established. In addition, the A/OPCs at the Defense
Information Systems Agency did not issue required delegation of authority letters
to two cardholders for whom the A/OPC increased their single purchase limits.

       Purchases Made in Excess of Cardholder’s Single Purchase Limit
Authority Established By Her A/OPC. One Defense Information Systems
Agency cardholder made purchases in excess of the single purchase limit the
A/OPC established and stated that that her approving official directed she make
the purchase. In addition, the cardholder stated that she believed the bank
increased all single purchase limits to $15,000 to support Hurricane Katrina
rescue and relief operations and that the items she purchased actually supported
Hurricane Katrina rescue and relief efforts.




                                     18
             Purchases Made Without Required Written Delegation of Authority.
    The A/OPCs responsible for the two Defense Information Systems Agency
    cardholders who made purchases in excess of $2,500 in support of Hurricane
    Katrina rescue and relief operations without required delegation of authority
    letters stated they had increased the single purchase limits for cardholders and
    were aware of the increased delegations of authority. However, the A/OPCs
    stated they did not reissue required written delegation of authority letters for
    purchasing in support of Hurricane Katrina because they were unaware of the
    requirement to reissue delegation of authority letters for purchases that supported
    Hurricane Katrina rescue and relief operations, although they had actually
    received the DoD Guidance.

    A/OPCs for the Army, Air Force, and Defense Information Systems Agency
    stated that the bank normally denies purchases made in excess of a cardholder’s
    established purchase authority. The A/OPCs stated they believed that the blanket
    increase of single purchase limits for cardholders by U.S. Bank allowed
    cardholders to exceed their established single purchase limits. Although the
    blanket increase was only in effect for 6 days before it was rescinded, the bank
    could not reverse the blanket increase to affect only the single purchase limits of
    the cardholder accounts that the blanket increase affected. A/OPCs stated that
    they worked closely with bank officials to properly increase and decrease single
    purchase limits for cardholders as necessary.


Inadequate Supporting Documentation and Purchase
  Justification

    Army and Air Force cardholders made Hurricane Katrina-related purchases and
    did not have supporting documentation and justification information required for
    Hurricane Katrina-related purchase card transactions. DoD Guidance requires
    that cardholders obtain appropriate requirements documents and identify and
    justify purchases specifically related to Hurricane Katrina. In addition, the DoD
    Guidance requires that cardholders include details on specific goods and services
    purchased, including how the purchase supported Hurricane Katrina rescue and
    relief operations.

    Cardholders Did Not Provide Adequate Supporting Documentation for
    Purchases. Of the cardholders making purchases without adequate supporting
    documentation, nine Army cardholders and one Air Force cardholder made
    purchase card transactions in excess of $2,500 in support of Hurricane Katrina
    without adequate supporting documentation. Specifically, for the Army,
    1 cardholder at Camp Shelby made 1 purchase; 6 cardholders at Fort Bragg made
    23 purchases; and 2 cardholders at Fort Hood made 20 purchases without
    adequate supporting documentation. The Camp Shelby cardholder did not


                                        19
include a request, invoice, or proof of receipt for his purchase. For the
6 cardholders at Fort Bragg making 23 purchases, 4 cardholders made 8 purchases
without a documented request or proof of receipt, and 2 cardholders made
15 purchases without proof of receipt. For the 2 cardholders at Fort Hood who
made 20 purchases, 1 cardholder made 1 purchase without a request, invoice, or
proof of receipt, and both cardholders made 18 purchases without a request. For
the Air Force, one cardholder at Randolph Air Force Base made one purchase
without adequate supporting documentation. The cardholder was unable to
provide an invoice to support his purchase.

Cardholders Did Not Provide Sufficient Justification for Purchases. Of the
cardholders making purchases without sufficient justification, four Army
cardholders made purchase card transactions in excess of $2,500 in support of
Hurricane Katrina without sufficient justification.

        Army Purchases. Of the cardholders making purchases without
sufficient justification on how the purchases supported Hurricane Katrina rescue
and relief operations, one cardholder at Fort Benning made one purchase and one
cardholder at Fort Bragg made one purchase. In addition, one cardholder at Fort
Bragg made one purchase and one cardholder at Fort Hood made 10 purchases
without any justification of how the purchases supported Hurricane Katrina
rescue and relief operations. For example, a Fort Bragg cardholder made a
purchase for spill kits, place cards, and Motorola radios. The cardholder provided
documentation that supported the purchase but did not show justification on how
the items supported Hurricane Katrina rescue and relief operations. However, the
cardholder stated the purchase was to support Hurricane Katrina rescue and relief
operations. One cardholder at Fort Hood made a purchase for generators. The
cardholder provided transaction documentation stating the generators were in
support of Hurricane Katrina. The documentation the cardholder provided did not
show a justification for how the generators supported Hurricane Katrina rescue
and relief operations. The cardholder stated he was unable to provide the precise
reason of the generator purchase but believed it was for running electricity in
temporary tents.

        Air Force Purchases. One cardholder at Moody Air Force Base made
one purchase, one cardholder at Peterson Air Force Base made five purchases,
and three cardholders at Randolph Air Force Base made five purchases without
any justification for how the purchases supported Hurricane Katrina rescue and
relief operations. For example, a Peterson Air Force Base cardholder provided
transaction documentation stating the purchase was for possible support of
Hurricane Katrina, but did not justify how the items supported Hurricane Katrina
rescue and relief operations. However, the cardholder stated the items purchased
were used to support contracting troops deployed to the disaster area.




                                    20
    Cardholders provided inadequate documentation for Hurricane Katrina-related
    purchase card transactions and did not include required justification on specific
    goods and services purchased, including how the purchase supported Hurricane
    Katrina rescue and relief operations. The Army A/OPCs at Fort Benning, Fort
    Bragg, and Fort Hood and the Air Force A/OPCs at Moody, Peterson, and
    Randolph Air Force Bases each stated they did not distribute policies and
    procedures for documenting and justifying Hurricane Katrina-related purchase
    card transactions because they were unaware of the requirement, although they
    received the DoD Guidance. Without adequate supporting documentation and
    sufficient justification, the Army and Air Force program officials cannot properly
    review transactions as required to determine whether Hurricane Katrina-related
    purchase card transactions were executed in accordance with policies and
    procedures.


Conclusion

    We recognize that the nature of executing a natural disaster-related contingency
    operation does not lend itself to exact and complete documentation and records
    management. OMB and DoD did not issue guidance for making purchase card
    transactions in support of Hurricane Katrina rescue and relief operations until
    2 and 3 weeks, respectively, after the disaster. Consequently, support for
    cardholder files and purchase card transactions could not have been strictly
    maintained and executed in accordance with the policies and procedures the
    guidance mandates. However, our visits to the installations reviewed did not
    begin until early December 2005, more than 90 days after Hurricane Katrina. Our
    results indicate that, overall, Army and Air Force purchase card program
    managers made minimal effort to implement the OMB and DoD Guidance or to
    review purchase card transactions within a reasonable time to assess the
    effectiveness of program controls or management oversight.

    The USD(AT&L) memorandum, September 16, 2005, emphasizes the importance
    of ensuring that the increased threshold as well as statutory flexibilities “are used
    only for efforts that have a clear and direct relationship to Hurricane Katrina
    rescue and relief operations and that they are used in a responsible and effective
    manner with appropriate controls.” Army and Air Force program personnel from
    the cardholder level to the Component Level II A/OPC failed to follow guidance
    for tracking purchase card transactions. As a result of not following guidance, the
    Army and Air Force cannot determine with reasonable certainty the number of
    transactions or dollar value of those transactions made for Hurricane Katrina
    rescue and relief operations.




                                         21
Recommendations, Management Comments, and Audit
  Response

    A.1. We recommend that the Director of the DoD Purchase Card Joint
    Program Management Office:

           a. Revise purchase card transaction guidance for contingency
    operations to clarify policies and procedures for identifying and tracking of
    contingency operation purchase card transactions.

    Management Comments. The Director, Defense Procurement and Acquisition
    Policy, concurred and stated that they revised the DoD Government Charge Card
    Guidebook to include an appendix specifically addressing the use of the
    government purchase card for contingency and humanitarian operations. The
    Director also stated the PCPMO guidebook will state that any rescue or relief
    operation cost, regardless of whether or not it is reimbursable, should be
    identified.

    Audit Response. The comments are responsive, and no additional comments are
    required.

          b. Issue guidance referenced in A.1.a. to the Component Level II
    Agency/Organization Program Coordinators as a standard policy to be
    implemented in the event of a contingency.

    Management Comments. The Director concurred and stated, in the event of
    another disaster relief situation, they will request the banks to send a mass
    broadcast to their A/OPCs notifying them of the policy requirements.

    Audit Response. The comments are responsive, and no additional comments are
    required.

    A.2. We recommend the Director of the Army Purchase Card Program
    Management Office require the Level II Army Agency/Organization
    Program Coordinator:

          a. Establish and document policies and procedures for implementing
    purchase card program controls that will ensure Agency/Organization
    Program Coordinators, Approving Officials, and Cardholders comply with
    DoD program guidance for contingency operations.

    Management Comments. The Acting Director, Army Contracting Agency,
    concurred and stated he will distribute Army-specific policy within 30 days of



                                        22
receiving DoD PCPMO clarification of procedures to identify and track
contingency operation purchase card transactions.

Audit Response. The comments are responsive, and no additional comments are
required.

       b. Require Level III Agency/Organization Program Coordinators
distribute to Level IV Agency/Organization Program Coordinators guidance
that provides procedures for obtaining accurate and complete tracking of
data for purchase card transactions during contingency operations.

Management Comments. The Acting Director concurred and stated Level III
A/OPCs must confirm to the Level II A/OPC that distribution of policy has been
completed and receipt acknowledged by all Level IV A/OPCs.

Audit Response. The comments are responsive, and no additional comments are
required.

      c. Require that the appropriate Agency/Organization Program
Coordinators conduct in accordance with OMB requirements follow-up
reviews for Hurricane Katrina purchase card transactions.

Management Comments. The Acting Director concurred and stated A/OPCs
must identify purchases made in support of Hurricane Katrina relief and complete
no later than November 15, 2006, a follow-up review on 100 percent of the
transactions. The Acting Director also stated that Level III A/OPCs will report to
the Level II A/OPCs when the reviews are completed.

Audit Response. The comments are responsive, and no additional comments are
required.

A.3. We recommend the Director of the Air Force Purchase Card Program
Management Office require that the Level II Air Force Agency/Organization
Program Coordinator:

      a. Establish and document policies and procedures for implementing
purchase card program controls that will ensure Agency/Organization
Program Coordinators, Approving Officials, and Cardholders comply with
DoD program guidance for contingency operations.

Management Comments. The Assistant Secretary of the Air Force for
Acquisition concurred and stated they are working closely with the DoD PCPMO
to develop guidance, policy, and procedures for consistently capturing natural
disaster contingency-related transactions, conducting timely follow-up reviews,
monitoring/controlling delegation of authority letters for single-purchase limits,


                                    23
and strengthening oversight and internal controls to mitigate the risk of fraud,
waste, and abuse.

Audit Response. The comments are responsive, and no additional comments are
required.

       b. Require that Level III Agency/Organization Program Coordinators
distribute to Level IV Agency/Organization Program Coordinators guidance
that provides procedures for obtaining accurate and complete tracking of
data for purchase card transactions during contingency operations.

Management Comments. The Assistant Secretary concurred and stated they are
working closely with the DoD PCPMO to develop guidance, policy, and
procedure to consistently capture natural disaster contingency-related transactions
and that will require the Level III A/OPC to properly distribute procedural
guidance to Level IV A/OPCs. In addition, the Assistant Secretary stated that Air
Force participation in a DoD initiative called the Purchase Card Online System
that includes authorization, data mining, and risk assessment as part of a host of
internal management control tools will significantly enhance efforts to improve
internal controls.

Audit Response. The comments are responsive, and no additional comments are
required.

      c. Require that the appropriate Agency/Organization Program
Coordinators conduct in accordance with OMB requirements follow-up
reviews for Hurricane Katrina purchase card transactions.

Management Comments. The Assistant Secretary concurred and stated they are
working closely with the DoD PCPMO to develop guidance, policy, and
procedures for conducting timely follow-up reviews.

Audit Response. The comments are responsive, and no additional comments are
required.

A.4. We recommend the Director of the Defense Information Systems
Agency:

      a. Establish and document policies and procedures for implementing
purchase card program controls that will ensure Agency/Organization
Program Coordinators, Approving Officials, and Cardholders comply with
DoD program guidance for contingency operations.

Management Comments. The Director for Procurement Chief, Defense
Information Technology Contracting Organization concurred and stated that the


                                     24
Defense Information Systems Agency is in the process of updating its Purchase
Card Deskbook to emphasize contingency situations by incorporating the DoD
and OMB purchase card policies, procedures, and guidance. The Director
anticipates completion of this action by November 1, 2006.

Audit Response. The comments are responsive, and no additional comments are
required.

       b. Require Level III Agency/Organization Program Coordinators to
distribute to Level IV Agency/Organization Program Coordinators guidance
that provides procedures for obtaining accurate and complete tracking of
data for purchase card transactions during contingency operations.

Management Comments. The Director concurred and stated that the Defense
Information Systems Agency will define a method for tracking purchase card
contingency operation data and will incorporate the procedures into the Purchase
Card Deskbook. The Director anticipates completion of this action by
November1, 2006.

Audit Response. The comments are responsive, and no additional comments are
required.

      c. Require that the appropriate Agency/Organization Program
Coordinators conduct in accordance with OMB requirements follow-up
reviews for Hurricane Katrina purchase card transactions.

Management Comments. The Director concurred and stated the two Agency
Program Coordinators will conduct the required follow-up review for its Katrina
purchase card transactions and capture “Lessons Learned” from those reviews and
incorporate them into the Purchase Card Deskbook.

Audit Response. The comments are responsive, and no additional comments are
required.

A.5. We recommend the Director of the National Geospatial-Intelligence
Agency:

      a. Establish and document policies and procedures for implementing
purchase card program controls that will ensure Agency/Organization
Program Coordinators, Approving Officials, and Cardholders comply with
DoD program guidance for contingency operations.

Management Comments. The Director of the National Geospatial-Intelligence
Agency concurred and stated that the National Geospatial-Intelligence Agency
established and documented procedures for implementing purchase card program


                                   25
controls that will ensure A/OPCs, approving officials, and cardholders comply
with DoD Guidance for contingency operations; the Director stated that the
procedures were incorporated into the National Geospatial-Intelligence Agency
Government Purchase Card Supplement to the DoD Charge Card Guidebook.
The Director also stated that the procedures were coordinated with the DoD
Government Purchase Card Program Management Office, and DoD-level
concurrence obtained on April 19, 2006.

Audit Response. The comments are responsive, and no additional comments are
required.

      b. Require that the appropriate Agency/Organization Program
Coordinators conduct in accordance with OMB requirements follow-up
reviews for Hurricane Katrina purchase card transactions.

Management Comments. The Director concurred and stated they completed the
follow-up reviews. In addition, the Director stated that all National
Geospatial-Intelligence Agency purchase card officials authorized to make
purchases under Special Emergency Procurement Authority were trained in April
2006 to ensure that those personnel were fully aware of their duties and
responsibilities.

Audit Response. Although the National Geospatial-Intelligence Agency
concurred with the recommendation, we consider the comments partially
responsive. The Director stated they conducted follow-up reviews of Hurricane
Katrina purchase card transactions; however, the reviews were not conducted in
accordance with Office of Management and Budget requirements. Therefore, we
request the National Geospatial-Intelligence Agency provide additional comments
in response to the final report identifying specific actions to show that follow-up
reviews will conform to requirements.




                                    26
           B. Purchase Card Transactions Exceeded
              the $2,500 Micro-Purchase Threshold
           Army and Air Force cardholders made 269 improper purchase card
           transactions unrelated to Hurricane Katrina at 4 Army and 7 Air Force
           installations that exceeded the $2,500 threshold for single micro-purchases
           that the Federal Acquisition Regulation mandates. Specifically, Army and
           Air Force cardholders executed⎯

                  •   39 transactions exceeding the $2,500 single purchase limit
                      authorized by the delegation of authority letter;

                  •   11 transactions without using a Government contract;

                  •   4 transactions with inadequate sole-source justification; and

                  •   215 transactions without obtaining 3 sources of competition
                      when purchasing from Federal Supply Schedules.

           Cardholders made those transactions because purchase card program
           managers did not effectively implement Army and Air Force purchase
           card guidance and did not enforce existing controls for purchase cards.
           Unless management officials of the purchase card program at the four
           Army and seven Air Force installations establish a robust oversight
           presence and significantly strengthen internal controls, Army and Air
           Force purchase card program officials cannot mitigate the risk of fraud,
           waste, and abuse.


Federal Purchase Card Guidance

    Federal Acquisition Regulation Part 13, “Simplified Acquisition
    Procedures,” March 2005. The Federal Acquisition Regulation Part 13, Subpart
    13.1 states when making purchases exceeding the simplified acquisition
    threshold, the contracting officer must consider solicitation of three sources to
    promote competition to the maximum extent practicable for obtaining supplies
    and services from the source whose offer is most advantageous to the
    Government. Whenever practicable, the contracting officer should request quotes
    from two sources not included in the previous solicitation.

    Federal Acquisition Regulation Part 8, “Required Sources of Supplies and
    Services,” March 2005. The Federal Acquisition Regulation Part 8, Subpart 8.4
    states for orders placed under the Federal Supply Schedules, ordering activities


                                       27
    shall procure sole-source requirements only if the need is justified in writing. In
    addition, the contracting officer for the ordering activity may solicit from one
    source if the contracting officer determines that the circumstances deem only one
    source is reasonably available for orders placed above the micro-purchase
    threshold but not exceeding the threshold for a simplified acquisition. If that
    occurs, the contracting officer must approve the justification unless a higher
    approval level is established in accordance with agency procedures.


DoD Purchase Card Guidance

    Department of Army, “Government Purchase Card Standard Operating
    Procedure,” July 31, 2002. The Army Standard Operating Procedure states that
    contracting officers and other designated contracting personnel may use the card
    as a method of payment on a contractual document up to the warrant limit of the
    contracting officer. The Army Standard Operating Procedure also states that
    cardholders with authority to make purchases above $2,500 who do not work for
    contracting organizations will use the purchase card to obtain items only from
    pre-priced contracts and agreements, including Federal supply schedules and
    blanket purchase agreements. The Army Standard Operation Procedure requires
    that A/OPCs establish limits for a cardholder’s single and monthly purchase
    limits and issue delegation of authority letters that provide cardholders with the
    authority to make purchases up to the specified purchase limits. The Army
    Standard Operating Procedure also states when specifically authorized,
    cardholders not in contracting organizations may only make purchases in excess
    of $2,500 from pre-priced contracts and agreements. In addition, the Army
    Standard Operating Procedure states A/OPCs must conduct an annual review of
    each assigned billing official; A/OPCs must review an adequate number of
    randomly selected transactions that can verify cardholders are following correct
    procedures and processes. The Army Standard Operating Procedure also states
    the DoD PCPMO office is developing guidance that will assist A/OPCs in
    determining how many transactions should be reviewed.

    Department of Air Force Instruction 64-117, “Air Force Government-wide
    Purchase Card Program,” December 6, 2002. Air Force Instruction 64-117
    states that warranted contracting officers might specify the purchase card as a
    method of payment on a contractual document up to the warrant limit of the
    contracting officer. Air Force Instruction 64-117 also states that when purchasing
    from Federal supply schedules and blanket purchase agreements, cardholders
    must review prices on at least three contracts or agreements and select the best
    value item for their requirements. In addition, the cardholder will keep a record
    of the review with the documentation for the cardholder. Air Force Instruction
    64-117 requires that A/OPCs establish limits for a cardholder’s single and
    monthly purchases and issue delegation of authority letters that provide


                                        28
    cardholders with authority to make purchases up to the specified purchase limits.
    In addition, Air Force Instruction 64-117 states that when specifically authorized,
    cardholders not in contracting organizations may only make purchases in excess
    of $2,500 from pre-priced contracts and agreements. Air Force Instruction 64-
    117 states A/OPCs will conduct a review of each billing official at least every 12
    months. Billing officials will conduct 100-percent reviews for cardholders at
    least every 12 months.


Army, Air Force, and Defense Agency Purchase Card
  Transactions Reviewed

    We identified and reviewed 1,651 purchase card transactions in excess of $2,500
    made from September 1 through September 30, 2005, that were unrelated to
    supporting Hurricane Katrina rescue and relief operations. Specifically, we
    reviewed⎯

           •   650 purchase card transactions, valued at $8,445,153, that
               148 cardholders made at 5 Army installations (Camp Shelby, Fort
               Benning, Fort Bragg, Fort Gordon, and Fort Hood);

           •   991 purchase card transactions, valued at $8,234,260, that
               386 cardholders made at 7 Air Force installations (Hill, Keesler,
               Lackland, Little Rock, Moody, Peterson, and Randolph Air Force
               Bases); and

           •   10 purchase card transactions, valued at $69,985.43, that 4 cardholders
               made at 2 Defense agencies (The Defense Commissary Agency and
               the Defense Information Systems Agency).


Army and Air Force Cardholders Made Improper Purchases

    For the 1,651 Army, Air Force, and Defense agency purchase card transactions
    reviewed, Army and Air Force cardholders made 269 improper purchase card
    transactions unrelated to Hurricane Katrina at 4 Army and 7 Air Force
    installations that exceeded the $2,500 threshold for micro-purchases that the
    Federal Acquisition Regulation mandates. We did not identify improper
    purchases at Camp Shelby, the Defense Commissary Agency, or the Defense
    Information Systems Agency.

    For the 148 Army cardholders and the 650 Army transactions reviewed,
    31 cardholders made 66 improper purchase card transactions. Specifically:


                                        29
       •   14 cardholders made 16 transactions exceeding the $2,500 threshold
           for micro-purchases authorized by each cardholder’s delegation of
           authority,

       •   3 cardholders made 3 transactions without using a Government
           contract,

       •   1 cardholder made 2 transactions with inadequate sole-source
           justification, and

       •   13 cardholders made 45 transactions without obtaining 3 sources of
           competition when purchasing from Federal Supply Schedules.

In addition, for the 386 Air Force cardholders and 991 Air Force transactions
reviewed, 116 cardholders made 203 improper purchase card transactions.
Specifically:

       •   16 cardholders made 23 transactions exceeding the $2,500 threshold
           for micro-purchases, which was authorized by each cardholder’s
           delegation of authority,

       •   8 cardholders made 8 transactions without using a Government
           contract,

       •   1 cardholder made 2 transactions with inadequate sole-source
           justification, and

       •   91 cardholders made 170 transactions without obtaining 3 sources of
           competition when purchasing from Federal Supply Schedules.

The Purchase Card Audit Guide that the Government Accountability Office
publishes defines an improper purchase as a purchase that is for Government use
but is not permitted by law, regulation, or regulation policy.

Cardholders Made Purchases Exceeding Single Purchase Limit Authority.
Of the transactions made, 14 Army cardholders made 16 purchases and
16 Air Force cardholders made 23 purchases that exceeded the single purchase
limit of $2,500 that each cardholder’s written delegation of authority authorized.
Army and Air Force purchase card regulations state that A/OPCs establish the
single and monthly purchase limits for the cardholders and issue delegation of
authority letters that provide each cardholder with the authority to make
purchases up to the specified purchase limits. Army and Air Force regulations for
purchase cards also state that when specifically authorized, cardholders not in
contracting organizations may make purchases in excess of $2,500 only from pre-
priced contracts and agreements.


                                    30
                   Army Cardholders Exceeded Delegations of Authority. Of 148 Army
           cardholders at 5 Army installations reviewed, 14 made 16 purchases exceeding
           their delegation of authority. Specifically, one cardholder at Fort Benning made
           one purchase, six cardholders at Fort Bragg made six purchases, and eight
           cardholders at Fort Hood made ten purchases exceeding the $2,500 single
           purchase limit that each cardholder’s delegation of authority letter specified.

           The Army cardholders did not receive authorization to increase their single
           purchase limits for making purchases in excess of $2,500. For example, one
           cardholder at Fort Benning stated she exceeded her $2,500 single purchase limit
           because her supervisor directed that she make a furniture purchase with
           end-of-year funds. The cardholder stated she was unaware of restrictions against
           making purchases over the $2,500 single purchase limit her delegation of
           authority authorized. One Fort Bragg cardholder exceeded his single purchase
           limit of $2,500 because his supervisor directed that he purchase a tool repair kit.
           The cardholder stated he knew his single purchase limit was $2,500 and that
           exceeding the limit would violate purchase card policies and procedures.
           However, the cardholder stated his supervisor directed that he purchase the tool
           kit and, if necessary, split the purchase into two purchases to stay below the
           $2,500 threshold. As a result of our audit, the A/OPC became aware of the
           violation, and the A/OPC suspended the accounts for both the cardholder and
           approving official in January 2006. 5 The A/OPCs at Fort Benning, Fort Bragg,
           and Fort Hood responsible for implementing Army purchase card regulations
           stated they were unaware the cardholders made purchases exceeding their
           delegations of authority.

                   Air Force Cardholders Exceeded Delegations of Authority. Of 386 Air
           Force cardholders we reviewed at 5 of the 7 installations, 16 made 23 purchases
           exceeding their delegation of authority. Specifically, 6 cardholders at Hill Air
           Force Base made 8 purchases, 2 cardholders at Little Rock Air Force Base made
           2 purchases, 8 cardholders at Moody Air Force Base made 11 purchases,
           1 cardholder at Peterson Air Force Base made 1 purchase, and 1 cardholder at
           Randolph Air Force Base made 1 purchase exceeding the $2,500 single purchase
           limit stated in the cardholders’ delegation of authority letters.

           The Air Force cardholders did not receive specific authorization to increase their
           limit for single purchases in excess of $2,500. For example, one cardholder at
           Hill Air Force Base exceeded his single purchase limit of $2,500 because his
           supervisor directed that he purchase filters and an X-ray head. Another
           cardholder at Moody Air Force Base exceeded her single purchase limit of $2,500
           because her supervisor directed that she purchase uniforms, boots, and camel

5
    Termination of a cardholder or approving official account constitutes disciplinary action as established in
    the Army Government Purchase Card Standard Operating Procedure.



                                                       31
packs. Both cardholders were aware they were violating the policies and
procedures for the purchase card. However, the cardholders stated they believed
they had increased limits for single purchases because of the increased
micro-purchase threshold for Hurricane Katrina. The cardholder statements that
they believed they had increased single purchase limits lack credibility because
their purchases were unrelated to supporting Hurricane Katrina-related rescue and
relief efforts. The A/OPCs at Hill, Little Rock, Moody, Peterson, and Randolph
Air Force Base responsible for implementing Air Force purchase card regulations
stated they were unaware the cardholders exceeded their delegations of authority.

Army and Air Force A/OPCs stated that the bank normally denies purchases
made in excess of a cardholder’s established purchase authority. The A/OPCs
believed, however, that the Hurricane Katrina-related blanket increase by U.S.
Bank for the limits of each cardholder’s single purchase allowed cardholders to
exceed their established single purchase limits. Although the blanket increase
was rescinded within 6 days, implementation of the rescission took longer.

Purchases Made Without Using a Government Contract. Eleven Army and
Air Force cardholders made 11 purchases in excess of $2,500 without using a
Government contract. The Federal Acquisition Regulation states that when a
contracting officer exceeds the threshold for micro-purchases, the contracting
officer should develop a statement of work and request at least three contractor
quotes. The contracting officer is responsible for awarding a contract for
purchases in excess of $2,500 to contractors based on price reasonableness and
best value.

        Army Cardholders Made Purchases Without Using a Government
Contract. Three Army cardholders made three purchases in excess of $2,500
without using a Government contract at two of the five installations reviewed.
Each of the three cardholders had limits for single purchases in excess of $2,500.
Specifically, one Fort Benning cardholder made one $2,897 purchase at Staples
without using a Government contract. The cardholder stated she was unaware of
the requirement to purchase against a contract for purchases in excess of $2,500.
A Fort Bragg cardholder made a mission-related purchase for earphones and
headsets, valued at $12,221, that were not purchased using a Government
contract. The cardholder obtained three sources of competition for the purchase,
and the A/OPC directed that the cardholder contact the Department of
Contracting at Fort Bragg to issue a contract. The cardholder stated she did not
contact the Department of Contracting because of time constraints. Another Fort
Bragg cardholder made a mission-related purchase for flag cases, valued at
$2,896, not purchased using a Government contract. The cardholder was aware
of the requirement either to make a purchase in excess of $2,500 using a
Government contract or to contact the Department of Contracting to determine
contracting options. However, the cardholder stated that he assumed the vendor


                                    32
was under a Government contract because the vendor provided the specific flag
case measurements required.

        Air Force Cardholders Made Purchases Without Using a Government
Contract. Eight Air Force cardholders made eight purchases in excess of $2,500
without using a Government contract at three of the seven installations reviewed.
Specifically, four cardholders at Hill Air Force Base made four purchases, one
cardholder at Keesler Air Force Base made one purchase, and three cardholders at
Peterson Air Force Base made three purchases in excess of $2,500 without using
a Government contract. Each of the eight cardholders had a single purchase limit
authority in excess of $2,500. One cardholder at Peterson Air Force Base
purchased a truck repair, valued at $4,774, without a Government contract. The
cardholder stated he was aware that a purchase made in excess of $2,500 without
using a Government contract was a violation of purchase card policy and intended
to have the repair performed on two separate occasions and, therefore, ensure that
his purchases did not exceed his $2,500 limit. As a result of our review, the
Peterson A/OPC informed the cardholder and approving official that they should
not have intended to split the transactions between two separate purchases and
should have contacted the Base Contracting at Peterson Air Force Base to follow
contracting procedures. The A/OPC provided additional training to the
cardholder and approving official on purchase card use. Another cardholder at
Peterson Air Force Base made a purchase from Best Buy for a refrigerator and
dishwasher valued at $5,363 without using a Government contract because the
cardholder needed the items for the mission. The cardholder stated he made the
purchase without using a Government contract because he was unaware of the
requirement to issue a contract for purchases in excess of $2,500. As a result of
our review, the Peterson A/OPC issued a disciplinary notice to the cardholder and
approving official informing them of the proper contracting procedures. In
addition, the cardholder and approving official were re-trained. One cardholder at
Keesler Air Force Base purchased gloves and socks valued at $5,057 from a local
department store. The cardholder stated that his supervisor directed that he make
the purchase. The Keesler A/OPC learned of this improper purchase during our
review and promptly cancelled the cardholder’s account.

Inadequate Sole-Source Justification. Two Army and Air Force cardholders
made four purchases in excess of $2,500 with inadequate sole-source justification.
According to the Federal Acquisition Regulation, cardholders must solicit three
sources of competition for purchases in excess of $2,500 and justify sole-source
purchases in writing. One Army cardholder at Fort Hood made two purchases
and one Air Force cardholder at Hill Air Force Base made two purchases without
adequate sole-source justification. Both cardholders were contracting officers,
and they provided documentation that the purchases were justified for sole-source
by indicating in the documentation that the purchase was ‘sole source justified.’
However, neither cardholder provided justification by explaining how or why the


                                    33
purchase was justified for sole-source. Unless contracting officer cardholders
justify sole-source procurements by explaining how and why the purchase is
justified for sole-source, the Army and Air Force cannot ensure the Government
is receiving a best value purchase.

Cardholders Did Not Obtain Three Sources of Competition. Of the sites
reviewed, 104 Army and Air Force cardholders made 215 purchases in excess of
$2,500 without obtaining 3 sources of competition when purchasing from Federal
Supply Schedules. According to the Federal Acquisition Regulation, when
purchasing from Federal Supply Schedules, purchases exceeding $2,500 but not
the maximum order threshold, or the cardholder’s single purchase limit, the
ordering activity must solicit three sources of competition. In addition, Army and
Air Force purchase card regulations state cardholders not in contracting
organizations will use the purchase card to obtain items only from pre-priced
contracts and agreements including Federal supply schedules and blanket
purchase agreements. Of the 148 Army cardholders reviewed, 13 made 45
purchases at 4 of the 5 installations without obtaining 3 sources of competition for
purchases exceeding $2,500. In addition, 91 of the 386 Air Force cardholders
reviewed made 170 purchases at the 7 installations without obtaining 3 sources of
competition for purchases exceeding $2,500. Table 4 shows the installations
reviewed, the number of cardholders by installation that did not obtain three
sources of competition, and the number of purchases made at each installation
that did not consider the three-source requirement.




                                    34
     Table 4. Purchases That Did Not Obtain Three Sources of Competition.

                                      Cardholders         Purchases That
                                      That Did Not         Did Not Have
         Installation Reviewed        Obtain Three        Three Sources of
                                       Sources of          Competition
                                      Competition
             Fort Benning                    1                    1
              Fort Bragg                     6                   30
             Fort Gordon                     1                   1
              Fort Hood                      5                   13
           Hill Air Force Base               32                  64
         Keesler Air Force Base               3                   6
        Lackland Air Force Base               1                   1
       Little Rock Air Force Base            10                  14
         Moody Air Force Base                 4                  22
        Peterson Air Force Base              38                  59
        Randolph Air Force Base               3                   4
                 Total                       104                 215
     As a result, Army and Air Force cardholders made improper purchases when they
     did not comply with the Federal Acquisition Regulation, as well as Army and Air
     Force purchase card regulations by making purchases in excess of $2,500 without
     obtaining three sources of competition when purchasing from Federal Supply
     Schedules. Unless Army and Air Force cardholders attempt to obtain three
     sources of competition, Army and Air Force managers cannot ensure a concerted
     effort to obtain best value for Government purchases.


Recommendations, Management Comments, and Audit
  Response

  Revised Recommendations. As a result of management comments, we revised draft
  Recommendation B.1.a. to be applicable only to the Army by taking out “Air Force,”
  and we revised Recommendation B.2.a. to be applicable only to the Air Force by
  taking out “Army.”

  B.1. We recommend that the Director of the Army Purchase Card Program
  Management Office:


                                        35
     a. Issue guidance reiterating Federal Acquisition Regulation and
Army policies and procedures for making purchases in excess of $2,500.

Management Comments. The Acting Director, Army Contracting Agency,
partially concurred and stated the Army Level II A/OPC will develop and issue
guidance that clearly reiterates Federal Acquisition Regulations and
Army-specific policies and procedures for making purchases in excess of $2,500.
The Acting Director stated that Air Force policies will not be distributed.

Audit Response. Although the Army partially concurred, we consider the
comments responsive and revised the recommendation to be applicable only to
the Army.

        b. Require that Level II Agency/Organization Program Coordinators
distribute guidance to Level III and Level IV Agency/Organization Program
Coordinators on specific procedures for making purchases in excess of
$2,500.

Management Comments. The Director concurred and stated the guidance will
be provided to all Level III and Level IV A/OPCs throughout the Army.

Audit Response. The comments are responsive, and no additional comments are
required.

      c. Require that Level III and Level IV Agency/Organization Program
Coordinators distribute procedures to cardholders and approving officials
for making purchases in excess of $2,500 and include the procedures in
cardholder and approving official training.

Management Comments. The Director concurred and stated the guidance will
require that Army cardholders and billing officials be provided a copy of the
procedures and government purchase card training emphasize the proper
procedures for making purchases in excess of $2,500.

Audit Response. The comments are responsive, and no additional comments are
required.

B.2. We recommend that the Director of the Air Force Purchase Card
Program Management Office:

       a. Issue guidance reiterating Federal Acquisition Regulation and Air
Force policies and procedures for making purchases in excess of $2,500.

Management Comments. The Assistant Secretary of the Air Force for
Acquisition concurred with the recommendation and stated they are working


                                   36
closely with the DoD PCPMO reiterating Federal Acquisition Regulation and Air
Force policies and procedures for making purchases in excess of $2,500.

Audit Response. The comments are responsive, and no additional comments are
required.

        b. Require that Level II Agency/Organization Program Coordinators
distribute guidance to Level III and Level IV Agency/Organization Program
Coordinators on specific procedures for making purchases in excess of
$2,500.

Management Comments. The Assistant Secretary concurred with the
recommendation and stated they are working closely with the DoD PCPMO
requiring that Level II A/OPCs properly distribute guidance to Level III and
Level IV A/OPCs on procedures in excess of $2,500.

Audit Response. The comments are responsive, and no additional comments are
required.

        c. Require that Level III and Level IV Agency/Organization Program
Coordinators distribute procedures to all cardholders and approving
officials for making purchases in excess of $2,500 and include the procedures
in cardholder and approving official training.

Management Comments. The Assistant Secretary concurred with the
recommendation and stated they are working closely with the DoD PCPMO
requiring that procedures are distributed to all cardholders and approving
officials, and included in cardholder and approving official training.

Audit Response. The comments are responsive, and no additional comments are
required.




                                    37
Appendix A. Scope and Methodology
   DoD did not have a repository of data for Hurricane Katrina-related purchase card
   transactions. In addition, U.S. Bank did not have a unique indicator for
   identifying Hurricane Katrina-related cardholders or transactions. As a result, we
   requested from U.S. Bank a list of purchase card transactions in excess of $2,500
   the Army, Air Force, and Defense agencies made from September 1 through
   September 30, 2005. We also requested a list of Army, Air Force, and Defense
   agency cardholders who received increased single purchase limits for making
   Hurricane Katrina-related purchase card transactions from the Component level
   A/OPCs. For each cardholder the DoD Components and Defense agencies
   identified, we selected all cardholder accounts at the cardholder’s location and
   reviewed all purchase card transactions in excess of $2,500 made from
   September 1 through September 30, 2005.

   From September 1 through September 30, 2005, Army, Air Force, and Defense
   agency cardholders made 34,060 purchase card transactions in excess of $2,500.
   We reviewed 1,850 purchase card transactions in excess of $2,500 made by 591
   Army, Air Force, and Defense agency cardholders from September 1 through
   September 30, 2005. Specifically, we reviewed⎯

          •   746 purchase card transactions, valued at $9,404,303, made by
              178 cardholders at 5 Army locations (Camp Shelby, Fort Benning,
              Fort Bragg, Fort Gordon, and Fort Hood);

          •   1,085 purchase card transactions, valued at $8,914,814, made by
              406 cardholders at 7 Air Force locations (Hill, Keesler, Lackland,
              Little Rock, Moody, Peterson, and Randolph Air Force Bases); and

          •   19 purchase card transactions, valued at $179,456, made by
              7 cardholders at the National Geospatial-Intelligence Agency, the
              Defense Information Systems Agency, and the Defense Commissary
              Agency.

   We reviewed purchase card bank statements and other source documents such as
   delegation of authority letters, purchase requests, invoices, and receiving reports
   associated with the transactions and cardholder files selected. In addition, we
   reviewed implementation of Hurricane Katrina purchase card policies and
   procedures applicable to all purchase card transactions. We performed this audit
   from September 2005 through August 2006 in accordance with generally
   accepted government auditing standards. However, we limited our scope by
   excluding Navy purchase card transactions in support of Hurricane Katrina from
   the audit; the Naval Audit Service initiated a similar audit in September 2005.


                                        38
       Use of Computer Processed Data. To achieve the objective, we relied on
       computer-processed data from U.S. Bank, which was provided to us by the
       Defense Manpower Data Center. We did not perform a formal reliability
       assessment of the computer-processed data. However, we were able to establish
       data reliability for the information by comparing purchase card transaction data to
       source documentation. We did not find errors that would preclude the use of
       computer-processed data to meet the audit objective or that would change the
       conclusion in this report.

       Use of Technical Assistance. We received technical assistance from our Data
       Mining Division. The Data Mining Division obtained data for cardholder
       purchase card transactions from the Defense Manpower Data Center. The Data
       Mining Division extracted the data for DoD cardholder purchase card transactions
       in excess of $2,500 for September 2005 and provided the data to the audit team.

       Government Accountability Office High-Risk Area. The Government
       Accountability Office identified several high-risk areas in DoD. This report
       provides coverage of the DoD Contract Management high-risk area.


Prior Coverage

       Since Hurricane Katrina, the Naval Audit Service issued one report on purchase
       cards used for Hurricane Katrina relief efforts. Unrestricted Naval Audit Service
       reports can be accessed at http://www.navy.mil/NavalAudit.


Navy

       Naval Audit Service Report No. N2006-0042, “Department of Navy’s
       Government Commercial Purchase Card Used for Hurricane Katrina Efforts,”
       August 25, 2006




                                           39
Appendix B. Number of A/OPCs Responsible for
            Selected Transactions By Location

                              Location Visited                Number of A/OPCs
                                                                Responsible for
                                                             Selected Transactions
                                                                   Reviewed
Army               Camp Shelby                                         2
                   Fort Benning                                        1
                   Fort Bragg                                          2
                   Fort Gordon                                         2
                   Fort Hood                                           3
Air Force          Hill Air Force Base                                 1
                   Keesler Air Force Base                              1
                   Lackland Air Force Base                             1
                   Little Rock Air Force Base                          1
                   Moody Air Force Base                                1
                   Peterson Air Force Base                             1
                   Randolph Air Force Base                             1
Defense Agencies   Defense Commissary Agency                           1
                   Defense Information Systems Agency                  2
                   National Geospatial-Intelligence Agency             1
Total Reviewed                                                        21




                                        40
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
      Director, Department of Defense Purchase Card Joint Program Management Office
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Army
Auditor General, Department of the Army
Director, Army Purchase Card Program Management Office

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Director, Air Force Purchase Card Program Management Office

Combatant Command
Inspector General, U.S. Joint Forces Command




                                          41
Other Defense Organizations
Director, Defense Commissary Agency
Director, Defense Information Systems Agency
Director, National Geospatial-Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                          42
Under Secretary of Defense for Acquisition,
Logistics, and Technology Comments




                       43
44
Army Contracting Agency Comments




                    45
46
47
Department of the Air Force Comments




                     49
Defense Information Systems Agency Comments




                     51
52
National Geospatial-Intelligence Agency
Comments




                       53
     (not included)




54
     (not included)




55
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management Directorate prepared this report.
Personnel of the Department of Defense Office of Inspector General who
contributed to the report are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Carros
Richard O. Williams
Amie M. Hall
LeBarron A. Durant
Erin M. Grates
Jessica M. Smith
Sharon L. Carvalho
